HHS/OIG, Audit -"Blue Cross and Blue Shield of Texas Pension Segment Closing Audit,"(A-07-02-03032)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Blue Cross and Blue Shield of Texas Pension Segment Closing Audit," (A-07-02-03032)
June 30, 2004
Complete
Text of Report is available in PDF format (548 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Until its Medicare contracts were terminated in 1999, Texas Blue Cross and Blue Shield (BCBS) was allowed to claim reimbursement
for its Medicare employees' pension costs.  According to Federal regulations and the Medicare contracts, pension gains
that occur when a Medicare segment of a pension plan closes must be credited to the Medicare program.  We found that
Texas BCBS originally identified excess Medicare pension assets of $10,753,575.  However, Texas BCBS revised its calculation
and indicated that the correct figure was $11,152,093.  We determined that the revised figure was materially correct
and recommended that Texas BCBS remit $11,152,093 to the Federal Government for excess Medicare pension assets.